U.S. Department of Agriculture
 Office of Inspector General
     Great Plains Region
         Audit Report



      Rural Utilities Service
     Water and Waste Program
          Grant Eligibility




               Report No.
               09601-6-KC
               September 2003
                 UNITED STATES DEPARTMENT OF AGRICULTURE
                                 OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250




DATE:         September 8, 2003

REPLY TO
ATTN OF:      09601-6-KC

SUBJECT:      Water and Waste Program Grant Eligibility

TO:           Hilda Gay Legg
              Administrator
              Rural Utilities Service

THROUGH: John Purcell
         Director
         Financial Management Division

This report presents the results of our audit of the Rural Utilities Service’s water and
waste grant eligibility determination process. The agency’s written response to the
official draft report, dated July 24, 2003, is included in the report as exhibit E. Excerpts
from the response and the Office of Inspector General’s position are also incorporated
into the Findings and Recommendations section of the report. Based on the written
response, we accept your management decision for Recommendation No. 3. As
described in the report, additional information is required before management decisions
can be achieved for Recommendations Nos. 1, 2, and 4.

In accordance with Departmental Regulation 1720-1, please furnish a reply within
60 days describing corrective actions taken or planned and the timeframes for
implementation for those recommendations where management decisions have not
been reached. Please note that the regulation requires management decisions to be
reached on all findings and recommendations within 6 months after report issuance.
You should follow your internal agency procedures in forwarding final action
correspondence to the Office of the Chief Financial Officer for the cited recommendation
where management decision has been achieved.

We appreciate the cooperation and assistance extended by Rural Utilities Service
managers and employees.


/s/

RICHARD D. LONG
Assistant Inspector General
 for Audit
                       EXECUTIVE SUMMARY
                      RURAL UTILITIES SERVICE
             WATER AND WASTE PROGRAM GRANT ELIGIBILITY
                         WASHINGTON, D.C.

                            REPORT NO. 09601-6-KC


                                     This report presents the results of our audit of
     RESULTS IN BRIEF                the Rural Utilities Service (RUS) grant
                                     eligibility determination process. The primary
                                     objective of our review was to determine
         whether RUS grant funds were used only to benefit applicants unable to
         viably fund their water and waste projects without the use of grants.
         Depending on RUS’ determination of the applicants’ need for grants, some
         water and waste projects are funded entirely with loans and some are
         funded with a combination of grants and loans. We reviewed no water
         and waste projects funded entirely with loans. However, for RUS grants
         made concurrently with RUS loans, we reviewed the RUS loan eligibility
         determinations, as well as the grant eligibility determinations.

           Limited RUS grant and loan funds were not appropriately leveraged for
           maximum benefit to proposed water and waste projects in rural America,
           and commercial investment lenders were not given the opportunity to
           evaluate each application to determine if they would be interested in
           participating, in whole or in part, in financing the projects. While servicing
           requirements implemented in response to recommendations made in our
           prior audits improved identification of interested investment lenders, it was
           RUS practice to not contact interested commercial lenders to determine
           their interest in financing projects involving requests for grant funding. As
           a result, using statistical sampling techniques, we estimated that about
           $85.5 million of limited grant funds were provided unnecessarily to
           97 projects in our universe of 905 grant recipients. Concurrently in
           funding these projects, RUS made them loans that could have been
           replaced with financing from loans from commercial lending sources
           totaling a statistically estimated $97.9 million to these projects which
           received unnecessary grants. We also statistically estimated commercial
           lenders could have provided loan financing totaling another $163.3 million
           to 169 projects that did need grants as part of their funding, if given the
           opportunity.




USDA/OIG-A/09601-6-KC                                                             Page i
            We also found Rural Development Strategic and Annual Performance
            Plans did not include specific goals, objectives, or performance measures
            for leveraging limited grant or loan funds through successful referrals of
            eligible applicants to commercial lenders.

            We further found RUS did not always complete required tests for other
            credit properly for the statistically selected grant recipients reviewed.
            Grant applicant and servicing officials often did not obtain project
            evaluations from interested investment lenders or other sources of
            commercial credit. In other cases, RUS accepted declination letters from
            local lenders who did not normally make loans for water and waste
            projects. Also, RUS did not require applicants to provide project
            evaluations from their existing commercial lenders who had financed their
            other projects. We statistically estimated there were inadequate tests for
            other credit for 286 projects receiving grants totaling about $325.4 million.

            Exhibit A presents a summary of the monetary results of the audit.

                                        We recommended RUS (1) discontinue
  KEY RECOMMENDATIONS                   current practice of making grants contingent
                                        on RUS loans being used to finance the
                                        balance of project cost and emphasize the
         need to work with interested commercial lenders in order to maximize
         leverage of limited RUS funds, (2) revise current policy to require
         evaluations from interested investment lenders be solicited and analyzed
         before each future grant award is considered, and (3) establish
         Government Performance Results Act specific goals and performance
         measures for successful referrals of grant applicants to commercial credit
         and/or participation in joint financing with the private sector.

                                        On July 24, 2003, RUS officials expressed
     AGENCY RESPONSE                    general      concurrence     with   the    audit
                                        recommendations in their written response to
                                        the official draft report (see exhibit E for the
         response). RUS plans to publish a directive supporting the concept of
         maximizing utilization of grant funding before January 1, 2004. The
         directive will clearly state that RUS does not have a policy of awarding
         grant funds contingent on RUS loans being used to finance the balance of
         project cost. RUS plans for the directive to include specific requirements
         for documenting analysis of grant and loan applications and guidelines for
         referral of applicants to interested investment lenders. Also, RUS plans to
         modify the agency tracking system to capture information on referrals to
         other credit and establish specific goals and performance measures for
         successful referrals of grant and loan applicants to commercial credit.


USDA/OIG-A/09601-6-KC                                                            Page ii
           In the written response to the official draft report, RUS officials stated the
           agency defined reasonable user rates as those rates that were
           comparable to the rates of communities with similar economic conditions
           and the same type of established system. Also, RUS officials stated the
           commercial lender who evaluated the sample grants considered
           reasonable user rates to be those in the $40 to $50 range per month or
           comparable to the average cable television bill for all systems nationwide.

                                       The written response to the official draft report
        OIG POSITION                   indicates RUS officials plan to take positive
                                       actions to correct the conditions cited in this
                                       report. However, we noted that RUS officials
          did not correctly understand the definition of reasonable user rates used
          by the investment lender that evaluated the sample projects. The
          investment lender stated that, in some cases, communities receiving RUS
          water and waste grants and loans also received cable television service
          with monthly rates in the $40 per month range. The investment lender
          defined reasonable user rates as those that were, in his experience,
          similar to those for communities with the same type of established
          systems, including both communities receiving RUS grant and loan
          assistance, and those with commercial financing. The investment lender
          noted user rates for systems with commercial financing could not exceed
          the rates system users could afford. Otherwise, the community would
          default on the loan obligation. Also, we noted the communities selected
          by servicing officials as having similar systems were normally other
          communities already receiving RUS grant and/or loan assistance. During
          audit fieldwork, RUS officials stated the planned improvements to the
          agency’s automated tracking system would include maintaining
          comprehensive records of user rates and improving servicing officials’
          ability to compare the rates of similar systems.

           We were able to accept the management decision for Recommendation
           No. 3. RUS will need to provide additional information before we can
           achieve management decisions on Recommendations Nos. 1, 2, and 4.




USDA/OIG-A/09601-6-KC                                                            Page iii
                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................i
   RESULTS IN BRIEF....................................................................................................i
   KEY RECOMMENDATIONS ......................................................................................ii
   AGENCY RESPONSE ...............................................................................................ii
   OIG POSITION..........................................................................................................iii
TABLE OF CONTENTS................................................................................................iv
INTRODUCTION............................................................................................................1
   BACKGROUND .........................................................................................................1
   OBJECTIVES .............................................................................................................3
   SCOPE .......................................................................................................................3
   METHODOLOGY .......................................................................................................4
FINDINGS AND RECOMMENDATIONS .......................................................................5
   CHAPTER 1 ...............................................................................................................5
   LIMITED WATER AND WASTE GRANT FUNDS NOT LEVERAGED WITH
   INTERESTED INVESTMENT LENDERS FOR MAXIMUM BENEFIT........................5
   FINDING NO. 1 ..........................................................................................................5
   RECOMMENDATION NO. 1 ....................................................................................15
   RECOMMENDATION NO. 2 ....................................................................................16
   RECOMMENDATION NO. 3 ....................................................................................17
   RECOMMENDATION NO. 4 ....................................................................................17
   EXHIBIT A – SUMMARY OF MONETARY RESULTS ............................................19
   EXHIBIT B – STATISTICAL SAMPLING PLAN ......................................................20
   EXHIBIT C – STATISTICAL ESTIMATES ...............................................................22
   EXHIBIT D – RESULTS OF TEST FOR OTHER CREDIT .......................................23
   EXHIBIT E – RUS RESPONSE TO THE DRAFT REPORT.....................................26
ABBREVIATIONS........................................................................................................30




USDA/OIG-A/09601-6-KC                                                                                                  Page iv
                            INTRODUCTION

                                     The Rural Utilities Service (RUS) is one of
       BACKGROUND                    three major program areas operating under
                                     the United States Department of Agriculture
                                     (USDA) mission area Rural Development
         (RD). RUS was established by Public Law 103-354, the Federal Crop
         Insurance Reform and Department of Agriculture Reorganization Act of
         1994. RUS administers the water and waste programs of the former
         Farmers Home Administration (FmHA) that provide funding to water and
         sewer projects for rural communities.

          RUS is authorized to provide direct loans, guaranteed loans, and grant
          assistance to public entities for water and waste disposal facilities in rural
          areas and towns with populations up to 10,000 people. The type of
          assistance (either loan funds or a combination of loan and grant funds)
          provided is governed by each community’s financial situation. Program
          regulations stipulate that RUS loans and grants are to be used for water
          and waste disposal projects serving the most financially needy
          communities. RUS Instruction 1780.35(c) provides user charges should
          be reasonable. RUS determines the grant amount based on equivalent
          dwelling unit costs that are not below similar system user costs. RUS
          grants are made to public entities, nonprofit associations, and certain
          Indian tribes. Water and waste disposal grants are authorized under the
          Consolidated Farm and Rural Development Act, as amended (Title 7
          United States Code (U.S.C.) 1926). The Consolidated Farm and Rural
          Development Act, as amended, requires applicants to certify in writing and
          the Secretary to determine and document that the applicant is unable to
          finance the proposed project from their own resources or through
          commercial credit at reasonable rates and terms (7 U.S.C. 1983).

          In addition, the Secretary is required to prepare a comprehensive rural
          development strategy which is designed to achieve the most effective
          combinations of Federal, State, and local resources to meet the needs of
          rural areas for orderly growth and development. The Secretary is
          required, in part, to improve credit availability and accessibility and
          delivery of commercial and public financial resources in the maintenance
          and creation of jobs in rural areas (7 U.S.C. 2204(b)).

          RUS administers its water and waste disposal program by allocating grant
          and loan funds to the State offices (SO). Each State’s allocation is
          determined by a formula established by regulation. The SO’s then make


USDA/OIG-A/09601-6-KC                                                           Page 1
              the funds available to their area offices (AO) to support rural water and
              sewer projects proposed by local communities.

              RUS SO’s and AO’s determine affordability based on the communities
              proposed operating budget. Reasonable rates are determined on the
              basis of (1) the community’s median household income or (2) user
              charges for similar systems in the area. RUS has the discretion to decide
              which approach will be used to determine the amount of grant funds
              provided. According to RUS, most decisions are based on the user
              charges for similar systems.

              Grant and loan applicants must provide completed applications and
              supporting documentation to servicing officials in order to determine
              eligibility for grant and loan funding. RUS servicing offices maintain
              servicing files that include applications, supporting documentation, and
              subsequent servicing actions. Water and waste projects receive grant
              and/or loan obligations after applications are completed and approved.
              RUS water and waste projects include all activities a water and waste
              applicant undertakes that are financed in whole or part with RUS
              assistance.

              Two previous Office of Inspector General (OIG) audits of RUS’ graduation
              (refinancing) process1 and one audit of its new loanmaking operations2
              disclosed that RUS was competing with commercial lenders in its servicing
              and loanmaking operations and was not actively seeking the type of
              investment lenders who were interested in refinancing and/or financing
              water and waste loan borrowers. In response to our recommendations,
              RUS officials agreed to (1) revise National office (NO) and SO guides to
              evaluate AO decisions not to graduate loans, (2) require SO’s to maintain
              a complete list of commercial lenders with an interest in financing
              community program projects and make trial referrals when appropriate,
              and (3) revise regulations to require all applicants to contact at least one
              potential source of commercial credit and certify in writing that the
              applicant is unable to finance the proposed project from their own
              resources or through commercial credit at reasonable rates and terms.

              In its fiscal year (FY) 1996 Federal Managers’ Financial Integrity Act
              (FMFIA) annual report, RD recognized RUS water and waste program
              loan activities as a material internal control weakness. RD determined
              RUS internal controls needed to be strengthened to ensure commercial
              credit was sought for water and waste disposal projects. In its FY 1998
              FMFIA annual report, RD reported that RUS had corrected the cited

1
  Audit No. 04099-146-TE, FmHA Survey of Community Program Loan Graduation, dated June 1989, and
Audit No. 09099-1-KC, Graduation of Community Program Loans, dated September 1995.
2
  Audit No. 09601-1-KC, Eligibility of Water and Waste Loans, dated December 1996.

USDA/OIG-A/09601-6-KC                                                                   Page 2
                 internal control weaknesses in loan activities by conducting training for
                 field personnel and developing a database of lenders interested in
                 financing water and waste program projects.

                 During the 1998 House of Representatives budget hearings, RUS officials
                 responded to Congressional questions that new, streamlined procedures
                 would ensure grant and loan applicants submitted meaningful
                 documentation of attempts to obtain commercial credit before RUS grants
                 and loans were made.3

                 RUS programs are administered by the Washington, D.C., NO, 47 SO’s,
                 and over 800 field offices. The water and waste program was initiated
                 approximately 60 years ago. Since program inception, grant and loan
                 funding totaled about $8 billion and $18 billion, respectively. From
                 FY 1992 through FY 2001, direct water and waste grants totaled about
                 $4.5 billion and loan appropriations totaled about $7.7 billion. During
                 FY 2001 through FY 2003, RUS water and waste grant funding is
                 expected to exceed $1.7 billion.

                                           The overall audit objective was to determine
              OBJECTIVES                   the effectiveness of instructions implemented
                                           by RUS to ensure limited water and waste
                                           grant funds were used to benefit only
               applicants unable to obtain credit from other sources. The specific audit
               objectives were to determine if (1) water and waste applicants
               independently sought credit from creditable commercial sources prior to
               approval of RUS grants, (2) servicing officials approached interested
               investment lenders themselves or returned incomplete applications, prior
               to approving grants, and (3) whether interested investment lenders could
               have financed the statistically selected projects with or without the use of
               RUS grant obligations.

                                              The audit design included a statistical analysis
                   SCOPE                      of water and waste projects receiving
                                              concurrent RUS grant and loan obligations.
                                              The audit universe was comprised of
                 905 water and waste projects receiving RUS grant obligations on or after
                 January 1, 1997, and before September 7, 2000. The audit universe was
                 designed to include grant obligations located in the contiguous United
                 States and each grant obligation was for at least $500,000. The projects
                 in the audit universe were stratified into six strata with respect to the grant
                 obligation amount. Outstanding grant obligations for the 905 projects in
                 the audit universe totaled about $1 billion. We accumulated financial data
                 (including Certified Public Accountant (C.P.A.) reports, project summaries,

3
    FY 1998 Hearing Questions, Rural Development.

USDA/OIG-A/09601-6-KC                                                                   Page 3
           grant determinations, and/or borrower budgets and balance sheets) from
           the year prior to the grant application through the year the sampled grant
           obligation was made. In accordance with our sampling plan, we selected
           75 grants to review. After reviewing 38 of the 75 statistically selected
           grants, we found that we had precise projections within allowable
           tolerances without reviewing all 75 grants. See exhibit B for the statistical
           sampling plan and exhibit C for our statistical estimates.

           To accomplish the audit objectives, fieldwork was performed at the NO,
           the Missouri SO, and two Missouri AO’s.

           We conducted this audit in accordance with Government Auditing
           Standards.

                                     We initiated our review by gaining an
       METHODOLOGY                   understanding of the water and waste
                                     program administered by RUS. We reviewed
                                     the applicable Code of Federal Regulations
         (CFR) and RUS Instructions, Bulletins, Staff Instructions and Procedure
         Notices related to the water and waste program. We conducted interviews
         with NO officials and SO and AO personnel responsible for administering
         the selected cases in our sample, where appropriate. Also, SO personnel
         in the nine States were asked to provide information on their policies in
         administering the program within their respective States, including their
         procedures for obtaining applicant evaluations from commercial credit
         sources.

           For the selected grant recipients in our sample; we requested and
           reviewed copies of grant applicant documents from the nine States’
           servicing office files, analyzed C.P.A. reports contained in RUS files,
           obtained additional information from State, area, and local servicing
           officials, as needed, and obtained a commercial lender’s written opinions
           as to whether the commercial sector would have been able to provide the
           financing for 38 of the selected projects, with or without grant assistance
           from RUS, based on the information made available to us by RUS.

           We also attempted to obtain individual written opinions from another
           commercial investment lender as to whether it or the commercial sector
           could have provided financing for the sampled projects. Officials of the
           investment lender stated they had noticed no material change in RUS
           lending policies and instructions after they had assisted us in previous
           audits in evaluating borrowers’ potential for commercial financing.
           Therefore, they declined to assist us in reviewing the grants sampled for
           this audit.




USDA/OIG-A/09601-6-KC                                                           Page 4
           FINDINGS AND RECOMMENDATIONS


                  LIMITED WATER AND WASTE GRANT FUNDS NOT
 CHAPTER 1        LEVERAGED WITH INTERESTED INVESTMENT
                  LENDERS FOR MAXIMUM BENEFIT


                                        RUS did not limit grant subsidies to only
        FINDING NO. 1                   applicants who could not develop their water
                                        and waste projects without Government
                                        assistance as required by the Consolidated
           Farm and Rural Development Act (7 U.S.C. 1983). These grant recipients
           also received the loan portion of their project funding from RUS, even
           though complete project financing was available from commercial sources
           of credit. For those applicants who could not viably fund their projects
           without grant funds, RUS provided funding for the entire projects, even
           though the loan portion of the financing package was available from
           commercial lending sources. These conditions occurred because RUS
           loan and grantmaking policies and practices contradicted the
           Department’s and RD’s stated objectives and goals in its Strategic Plans
           and Performance Reports. These plans and reports state that, whenever
           possible, assistance is to be provided in cooperation with other sources in
           order to leverage limited resources. RUS policy was to determine if a
           grant was needed to viably finance applicants’ requests for project funding
           without first consulting with commercial lending sources and, if so
           determined, to award grants to these projects without allowing lenders the
           opportunity to evaluate viability of the funding of the project from
           commercial sources. Also, RUS policy and procedures allowed it to
           exclusively provide the loan portion of project funding any time it awarded
           grant funds. The loan portion was also made without determining if
           commercial funding was available. RUS further did not follow its existing
           procedures for completing required contacts with commercial lenders and
           these contacts were often outdated by the time the grants and loans were
           awarded to applicants. As a result, RUS was competing with commercial
           lenders by denying them the opportunity to initially finance water and
           waste projects. RUS awarded a statistically estimated $85.5 million in
           grant money that was not needed to make the projects financially viable
           and it made a statistically estimated $97.9 million in RUS loans
           concurrently with the unneeded grant funds. In addition, RUS competed
           with loans from the private sector for another statistically estimated
           $163.3 million in loans to those who did need the grants in order to fund
           their projects. Finally, we statistically estimated that commercial lender

USDA/OIG-A/09601-6-KC                                                         Page 5
               contacts were not made for 286 projects with grant amounts totaling
               $325.4 million. (See exhibit C for the statistical estimates.)

               Statutory requirements prohibit the agency from competing with
               commercial sources of credit.4 Title 7 CFR requirements, included in RUS
               Instruction 1780, state that applicants must certify in writing and the
               agency shall determine and document that the applicant is unable to
               finance the proposed project from their own resources or through
               commercial credit at reasonable rates and terms.5 RUS Staff Instructions
               state the agency policy is to maximize the use of water and waste funds to
               benefit those who are unable to obtain credit from commercial sources.6
               Servicing officials are required to evaluate the applicant’s potential to
               obtain other credit before notifying the applicant of eligibility or proceeding
               with a full application.7 RUS Staff Instructions state that applicants who
               may be able to finance projects through commercial sources should be
               referred to interested lenders.8 Applicants must provide evidence they
               have contacted potential sources of commercial credit and the lender’s
               response.9 RUS may approve a grant and/or loan only when the applicant
               has provided required information, processing and approval officials have
               evaluated the application information and other pertinent information to
               determine the impact commercial financing would have on user rates, and
               determined other credit is not available at reasonable rates and terms, and
               included appropriate documentation in the case file.10 Upon completion of
               the initial application review, the processing office will forward the draft
               grant determination to the approval official.11 However, we found actual
               RUS lending policies and practices were not consistent with its objectives
               of using grant and loan assistance in a manner to maximize the use of
               limited water and waste funds. RUS Staff Instructions state that all
               discussions with other lenders and information obtained should be based
               on the entire amount of assistance needed and should not reflect any
               possible RUS grant assistance.12 RUS Instructions further provide that
               where RUS grant funds are used in conjunction with a RUS loan, the loan
               will be for the maximum term permitted.13 RUS officials also stated that it
               is agency policy to not make grants for the purpose of lowering loan
               funding requirements in order to make commercial financing feasible.


4
  Title 7 U.S.C. (1983).
5
  RUS Instruction 1780.7(d), dated June 4, 1999.
6
  RUS Staff Instruction 1780-6, dated December 1997, paragraph 1.1.
7
  RUS Staff Instruction 1780-6, paragraphs 1.1 to 1.4.
8
  RUS Staff Instruction 1780-2, paragraph 2.1, dated July 11, 1997.
9
  RUS Staff Instruction 1780-6, paragraph 3.1.
10
   RUS Staff Instruction 1780-6, paragraph 3.7.
11
   RUS Staff Instruction 1780-2, paragraph 2.4.
12
   RUS Staff Instruction 1780-6, paragraph 3.1.
13
   RUS Instruction 1780.13(e).

USDA/OIG-A/09601-6-KC                                                                 Page 6
               The USDA Strategic Plan for FY’s 2000-2005 states that, whenever
               possible, USDA assistance is to be provided in cooperation with other
               sources in order to leverage limited resources.14 The USDA long-term
               strategy is to draw private capital into rural areas by partnering with
               commercial lenders to jointly finance projects and encourage third-party
               specialty lenders who finance specific projects at reduced rates. The
               USDA FY 2002 Annual Performance Plan also noted that, in the coming
               years, USDA would work to establish or expand rural water systems by
               leveraging limited Department resources with those of other organizations.

               The RD FY 2001 Annual Program Performance Report cited
               accomplishments related to the objective of providing financing for
               modern, affordable water and waste disposal services in rural
               communities. The report stated that 613 rural water systems were
               developed or expanded which provided quality drinking water in
               compliance with the Safe Drinking Water Act. Also, RD reported that
               309 rural waste disposal systems were developed or expanded which
               provided quality waste disposal service in compliance with State and
               Federal environmental standards. RD reported that total funding for water
               and environmental programs totaled $1.41 billion in FY 2001 and reported
               that 40,600 jobs were generated as a result of facilities constructed with
               water and waste program funds.

               Also, the RD FY 2001 Annual Program Performance Report established
               key goals and performance indicators related to maximizing leverage of
               loan funds to increase the number of rural residents assisted by the rural
               housing, community facility, telecommunications, telemedicine, and
               distance learning, and rural electric programs. The report included actual
               results indicating the goals were met for most of these programs. For
               example, RD reported that during FY 2001, the number of single family
               housing borrowers assisted through leveraging of loan funds was
               103 percent of the established target and the number of rural home loan
               partnerships was 132 percent of the established goal. However, the RD
               portion of the USDA Strategic Plans and its Annual Performance Reports
               did not include any goals or performance measures for successful
               referrals of RUS water and waste grant and loan applicants to commercial
               lending sources or use of joint or cooperative financing arrangements with
               the private sector.

               Availability of limited RUS grant and loan funds has resulted in a
               continuing backlog of community requests for water and waste project
               financing assistance. RUS officials’ recent Congressional testimony

14
   The Government Performance and Results Act (GPRA, P.L. 103-62) requires agencies to develop
strategic plans, set performance goals, and report annually on actual performance compared to goals.
The plans and goals should be incorporated into the operational management of agencies and programs.

USDA/OIG-A/09601-6-KC                                                                      Page 7
               confirmed the limited availability of RUS grant funds.15 For example, in
               March 2002, RUS reported the backlog of grant applications totaled over
               $1 billion. During House of Representatives Committee on Appropriations
               hearings for FY 2003, RUS officials noted there was a current backlog of
               about 1,500 nonfunded water and waste loan applications totaling about
               $2.4 billion. RUS stated the backlog had remained at about this level for
               several years.

               RUS NO officials stated they considered the backlog to be due to delays
               in processing grant and loan applications as well as to limitations on
               available grant and loan funds. To expedite their requests, RUS officials
               stated applicants occasionally are given the option of accepting reduced
               grant funding or delaying financing until additional grant funds are
               available. RUS NO officials noted that if applicants were unwilling to wait
               for their requests to be awarded, they could also contact commercial
               lenders to obtain credit from them, if they elected to begin projects
               immediately. RUS NO officials noted that applicants elected to delay
               projects in order to obtain the benefits of RUS expertise and advice. Also,
               communities sometimes chose to wait for RUS to keep rates reasonable.
               However, the fact that applicants have withdrawn their applications and
               obtained financing from commercial sources to expedite completion of
               their projects indicates that they did not need RUS grant and/or loan
               assistance.

               RUS officials stated that because an applicant could not wait for funding
               did not mean they did not need RUS grant and loan assistance. RUS
               does not have sufficient funding to provide the needs for all applicants that
               apply. We recognize applicants want RUS grants and loans because RUS
               loans are generally for longer terms and lower interest rates than
               commercial credit. However, the applicant’s ability to actually obtain
               commercial credit shows that they did not need the RUS grant and loan
               assistance.

               We found RUS was competing with and not leveraging its limited grant
               and loan funds with commercial lenders as follows:

               a. RUS provided six of the statistically selected water and waste projects
                  with $7.9 million of unnecessary grant funds that could have been
                  replaced by financing with funds from commercial loans from the
                  private sector. Commercial investment lenders were not contacted to
                  determine their interest in financing the projects because the
                  applicants were not required to contact commercial investment lenders
                  once RUS determined the project could not be viably funded without

15
  Source: Agriculture, Rural Development, Food and Drug Administration, and related Agencies
Appropriations for 2003, Subcommittee of the Committee on Appropriations, House of Representatives.

USDA/OIG-A/09601-6-KC                                                                     Page 8
             the use of grant funds. We statistically estimated RUS provided
             97 projects with grant funds totaling about $85.5 million, which were
             not needed because interested investment lenders could have
             financed the entire projects with loans. Based on our projections, we
             are 95 percent certain that at least $22.3 million of grant funds could
             have been replaced with loan financing from commercial sources. Our
             estimate of $85.5 million has a sampling precision of 74.0 percent.

             At our request, a nationwide investment lender reviewed 38 of the
             statistically selected grants and provided written opinions as to whether
             commercial lenders would have provided financing for the projects
             based on the available information contained in the RUS borrower files.
             The investment lender stated that its firm or others in the commercial
             market would have financed six of the projects in their entirety with
             financing from commercial loans. The commercial investment lender
             said that all six of these projects could have been successfully
             financed solely with funds provided by loans and grant funds were
             unnecessary to make financing of the projects viable. The six statistical
             sample grant obligations totaled about $7.9 million.

             To illustrate, details for one of the six grants the investment lender
             opined that they or others in the commercial market would have
             financed are as follows:

                During August 1999, RUS funded a grant to Aqua Water Supply
                Corporation (nonprofit corporation) in Texas totaling $1,257,000
                and a concurrent loan for the project totaling $2,293,000. RUS
                financing for the project totaled $3,550,000. The project objective
                was to expand existing water production and treatment facilities to
                provide an adequate quantity and quality of water for their
                expanding customer base. RUS files indicate the project would
                serve about 11,600 users, had unrestricted net assets totaling
                about $20.3 million, and had annual net cash flow provided from
                operating activities totaling about $1.4 million. In March 1999, an
                existing creditor (a larger nonprofit corporation) offered to finance
                the project with a 20-year loan at an 8.55 percent taxable fixed rate
                (required for commercial lenders under State law). RUS files
                indicate the corporation elected to request RUS financing for the
                project, in part, to avoid a potential takeover by the larger
                corporation. The RUS loan was made at 4.75 percent (nontaxable
                rate) for 40 years.

                The investment lender assisting us told us their firm or others in the
                commercial market would have financed the entire project from
                loan funds and the project was financially viable without the use of
                grant funds. The nationwide investment lender estimated user

USDA/OIG-A/09601-6-KC                                                         Page 9
                rates would only increase about 6 percent with a general market
                20-year loan and a fixed, taxable financing rate of 8.5 percent. The
                increase was nominal and acceptable under RUS criteria.

                Texas SO officials stated that, at the time the project was financed
                using grant funds, they determined it was doubtful the applicant
                would have been able to obtain commercial credit at reasonable
                rates and terms. Texas SO officials stated they considered several
                factors, including balance sheet nonrestricted assets, annual cash
                flow, and consistency in user numbers and user rates in making
                their determination. Texas SO officials stated their professional
                judgment was a factor in making the determination. However, RUS
                files indicate the nonprofit corporation refinanced previous
                commercial loans totaling between $6.2 and $6.5 million with a
                large Texas commercial lender while the RUS grant and loan
                application was being considered. RUS files indicate that Aqua
                Water Supply Corporation also contacted a local bank that was not
                interested in financing the project and it declined the cited financing
                offer from a larger water supply corporation for the $3.55 million
                project financed with the RUS grant and concurrent loan included in
                our review. In addition, the Texas SO officials stated that Aqua
                Water Supply Corporation obtained loan financing for subsequent
                projects from a nationwide commercial lender. SO officials stated
                the corporation is currently in the process of refinancing its existing
                RUS loans with this commercial lender.

                RUS NO officials stated that a preliminary determination of the
                availability of other credit could be determined without contacting
                commercial credit sources on each loan inquiry if current lending
                criteria were maintained on credit availability. They further stated
                that they believed most of their grant recipients would be unable to
                obtain commercial financing for their projects. RUS officials
                planned to incorporate this policy into their written instructions in
                cases where they determined a grant was needed. Also, RUS NO
                officials stated they believed the concept of leveraging their limited
                funds for new grants and loans funds was more applicable to
                coordination with other federal or State agency loan and grant
                programs, rather than utilizing commercial lending sources. RUS
                NO officials stated that they did not perceive the leverage concept
                as being applicable to collaboration with commercial lenders on
                financing water and waste projects.

             Based on the results provided by the commercial lender that assisted
             us, we agree that most grant recipients would be unable to obtain
             commercial credit for their projects. However, our statistical sample,
             which is representative of the audit universe, also revealed that a

USDA/OIG-A/09601-6-KC                                                         Page 10
                      substantial amount of grant funds ($85.5 million to 97 projects) was
                      unnecessarily disbursed to projects who could have obtained their
                      funding instead from commercial loans.

                      We disagree with RUS plans to codify its policy so that no test for other
                      credit will be required for those projects where RUS officials
                      determined the use of grant funds are necessary to make financing of
                      the projects viable. Our audit results support the need to continue with
                      and improve oversight over current requirements to test for other
                      credit.

                  b. In addition to the unnecessary use of grant funds, RUS also completed
                     the financing packages for the six cited projects by making loans
                     totaling $6,667,600. As discussed above, the applicants were not
                     required to seek commercial sources of credit because RUS had
                     determined that the loans would not be sound without grants to
                     supplement the financing with loans. However, commercial investment
                     lenders would have provided all financing for these cited water and
                     waste projects, in their entirety, with loan funds. We statistically
                     estimated that RUS provided unnecessary loan funds totaling about
                     $97.9 million to finance these projects that investment lenders would
                     have replaced with commercial loans, if given the opportunity.

                  c. RUS provided another 11 of the 38 statistically selected water and
                     waste projects with unnecessary loan funds totaling $13,235,000 that
                     could have been financed commercially if RUS had collaborated with
                     commercial lenders to use their loan funds to complete financing for
                     projects which were not financially viable without utilizing RUS grant
                     funds. RUS procedures prohibit decoupling grant and loan funding to
                     allow financing of the loan portion of water and waste projects by
                     commercial lenders. RUS procedures do not allow commercial lender
                     funding for the loan portion of projects where grants were actually a
                     necessary part of the financing package to enable projects to be
                     financially viable.16 As a result, our statistical analysis estimated
                     169 grant recipients who actually needed the grants received
                     unnecessary concurrent RUS loan funding totaling about $163.3 million
                     that could have been financed by loan funds from commercial lenders,
                     if given the opportunity.

                      The investment lender who assisted us stated the commercial lenders
                      would have been interested in participating in joint financing of the loan
                      portion of the cited projects. The investment lender stated the amount
                      of RUS grant and loan fund resources needed to viably fund these


16
     RUS Staff Instruction 1780-6, paragraph 3.1.

USDA/OIG-A/09601-6-KC                                                                  Page 11
             projects would have been reduced if available commercial financing
             had been utilized in project funding.

             A Texas SO official agreed that, in some cases, decoupling RUS grant
             and loan funding and participating in joint financing could feasibly
             assist the agency in effectively using grant and loan funds. The Texas
             SO official cautioned, however, the agency would need to ensure RUS
             grant funds were used to benefit system users and not just subsidize
             commercial lenders and provide them an opportunity for increased
             interest rates or reduced loan terms. A Kentucky SO official agreed
             the agency should consider any recommendation to more effectively
             use grant or loan funds.

          d. RUS procedures did not always ensure commercial investment lenders
             were provided the opportunity to evaluate their interest in financing
             projects and that adequate tests for other credit were completed before
             RUS awarded grant funds and provided companion loan financing.
             This occurred, in part, because RUS officials substituted their own
             evaluation for the required evidence of commercial lender reviews.
             Also, RUS procedures do not require SO and AO reviews of
             applications and supporting documentation for sufficiency with RUS
             requirements at the time the grant and/or loan is awarded. As a result,
             we estimated that 286 grants in our sample universe totaling
             $325.4 million were funded with incomplete or inadequate tests for
             other credit. Based on our projections, we are 95 percent certain that
             at least $217.5 million of grants were funded with inadequate or
             untimely tests for other credit. Our estimate of $325.4 million has a
             sampling precision of 33.2 percent.

             Our review of the statistically selected applicant case files for evidence
             the borrowers contacted investment lenders capable of making water
             and waste loans revealed the following:

             •   No evidence of evaluation by any commercial lender was
                 documented for 22 of 38 statistically selected grant and loan files
                 we reviewed. (See exhibit D.) In addition, local banks were the
                 only lender contacts documented for nine projects. Local lenders
                 do not normally provide permanent financing for water and waste
                 projects, due to their own lending policies and State regulations.
                 The lenders contacted for these nine projects were not on the SO
                 approved list of lenders. RUS Staff Instructions do not specifically
                 require applicants for new grants and loans to contact investment
                 lenders that normally make water and waste grants and loans in the




USDA/OIG-A/09601-6-KC                                                         Page 12
                        State.17 Interested investment lenders reviewed only seven sample
                        projects before RUS grants and loans were funded.

                        The nine SO’s we reviewed were preparing comprehensive lists of
                        investment lenders active in the States. However, the State
                        comprehensive investment lender listings were used primarily to
                        refer borrowers identified as having loans with graduation potential
                        to sources of potential refinancing. SO and AO servicing officials
                        often did not take action to require applicants to contact investment
                        lenders on the SO lists prior to approving funding for new grants or
                        loans to the projects.

                        RUS SO and AO servicing officials did not believe reviews by
                        commercial lenders were needed when they determined a grant
                        was needed. A Mississippi SO official told us the State had
                        established an unwritten policy that when servicing officials
                        determined a grant was needed, the test for other credit was
                        considered complete and no lender contacts were required.

                    •   The commercial lender reviews were significantly outdated at the
                        time grants and loans were funded for 6 of the 10 projects reviewed
                        by local lenders. The local lender declination letters were dated as
                        much as 5 years before the grants and loans were funded.18

                        Similarly, the required applicant certifications of inability to obtain
                        other credit were not timely when grants and loans were funded for
                        16 files reviewed. When lengthy delays in grant and loan funding
                        occurred after the original application, RUS did not require the
                        applicants to obtain an up-to-date commercial lender evaluation
                        and provide a current certification of inability to obtain other credit.
                        As a result, applicant certifications of inability to obtain commercial
                        credit may not have been based on the lender’s current evaluation
                        of the project.

                    •   RUS provided grant funds to six sample projects with existing loans
                        from commercial lenders.        RUS obtained a project funding
                        evaluation from the existing commercial lender in only one of the six
                        cases. For five projects, RUS servicing officials substituted their
                        own grant and loan funding analysis for an evaluation by the
                        existing lenders. RUS servicing officials determined the applicant’s
17
   RUS Staff Instruction 1780-6, paragraph 3.1, states that applicants must provide evidence they have
contacted potential sources of commercial credit and the lender or lenders’ response.
18
   RUS Staff Instruction 1780-6, paragraph 3.1(b), requires information supporting the applicant
certification regarding other credit should normally have been obtained within 6 months of the date the
application is submitted. The instruction does not require that the information be updated at the time the
grant and/or loan is awarded.

USDA/OIG-A/09601-6-KC                                                                          Page 13
                 financial position was sufficiently secure enough that RUS accepted
                 junior lien positions to the commercial lenders or refinanced the
                 existing commercial debt as part of the obligation.

             We concluded inadequate commercial lender reviews adversely
             impacted the sufficiency of documentation available to support the
             grant and loan eligibility determinations RUS made. Many grant and
             loan applications included financial statements that were not audited or
             independently verified. Also, the project estimates of user numbers,
             expected user rates, and project construction and operating costs were
             not always consistent or well documented. Independent investment
             lender reviews of each water and waste grant and loan application
             would serve to strengthen the documentation available to enable RUS
             and the commercial lender to correctly determine project eligibilities for
             grant and loan financing.

             RUS NO officials stated the quality of grant and loan eligibility
             documentation in project files needed improvement. RUS NO officials
             stated new automated spreadsheets were being developed to improve
             documentation of expected users and rates and expected construction
             and operating costs. RUS NO officials also stated the level of water
             and waste program training provided to field office staff contributed to
             weaknesses in documentation of application analysis. Due to staff
             reassignments and reductions, some field personnel assigned to the
             water and waste program did not receive the needed level of grant and
             loan application processing training. RUS NO officials stated that while
             additional training was being developed, budget shortfalls had delayed
             implementation.

          From the results of our review, we noted some improvements in RUS
          communication and leverage with commercial lenders subsequent to the
          release of Staff Instruction 1780-6, dated December 1997. The nine SO’s
          we reviewed prepared more complete lists of investment lenders active in
          their States. Investment lenders we interviewed also noted improved
          loanmaking opportunities in limited locations (Oklahoma, in particular).
          Also, RUS officials reported in Congressional testimony that during
          FY’s 2000 through 2002, about 900 borrowers, with loan balances totaling
          about $2.8 billion, were graduated to commercial credit. RUS NO officials
          cited the increased loan graduation rates as evidence of improved tests
          for other credit and cooperation with the commercial lending sources.
          However, RUS NO officials stated they did not believe their water and
          waste program borrowers could normally have obtained financing for their
          new projects from commercial lenders with reasonable rates and terms.
          RUS officials reiterated that they plan to implement new instructions
          stating tests for other credit will not be required if RUS officials determine
          a grant is needed as part of project financing.

USDA/OIG-A/09601-6-KC                                                          Page 14
           In our view, RUS grant and loan policies and practices contradict
           Departmental objectives and goals for cooperation with the private sector
           cited for the water and waste program. A revised policy providing for
           referral of grant and loan recipients to commercial lenders for loan
           financing could provide a method for reducing the backlog of nonfunded
           applications. RUS policies actually mandate projects to use RUS loans
           when they might otherwise seek commercial financing. This policy forces
           investment lenders to make proposals for the entire project cost rather
           than proposing loans for the portion of project cost they would consider
           feasible in a joint-financing arrangement.

           Our audit results further show that there is a need to revise current
           instructions to improve oversight so that creditable evaluations for other
           credit are always timely performed and are sufficient to ensure RUS is not
           competing with and is obtaining maximum benefit from commercial
           sources of credit. Additional management controls are needed to ensure
           each water and waste project proposal is creditably evaluated by an
           interested investment lender before an RUS grant and loan is made.

                                   Discontinue current RUS practice of awarding
  RECOMMENDATION NO. 1             grant funds contingent on RUS loans being
                                   used to finance the balance of project cost.
                                   Develop and implement procedures for
        making RUS grants and/or loans in conjunction with joint financing
        arrangements with interested commercial investment lenders. Emphasize
        the need to work with commercial lenders in order to maximize use of
        limited RUS grant funds.

           Agency Response

           In the written response to the official draft report (see exhibit E), RUS
           officials stated:

                 A directive will be issued by January 1, 2004, advising RUS Water
                 and Environmental Programs (WEP) staff to maximize the
                 utilization of grant funding with the most favorable loan terms
                 available. The directive will clearly state that RUS does not have a
                 policy of awarding grant funds contingent on RUS loans being used
                 to finance the project costs.




USDA/OIG-A/09601-6-KC                                                       Page 15
           OIG Position

           We agree with RUS’ plan to issue a directive stating the agency does not
           have a policy of awarding grant funds contingent on RUS loans being
           used to finance the balance of project cost. In order to achieve a
           management decision for Recommendation No. 1, we need further
           information regarding whether RUS plans to develop plans and
           procedures for making grants and/or loans in conjunction with joint
           financing arrangements with interested commercial investment lenders.
           Also, we need to be advised of RUS’ plans to work with commercial
           lenders in order to maximize the use of RUS grant and loan funds.

                                    Revise current policy and procedures to
  RECOMMENDATION NO. 2              require that proposals from interested
                                    commercial investment lenders always be
                                    solicited and analyzed before each future
        grant obligation is considered by RUS. Institute NO and SO controls that
        ensure each complete grant and loan application includes an evaluation
        and response (either a declination or proposal) from at least one
        commercial investment lender interested in financing water and waste
        projects. The evaluation and response should always be with a
        commercial investment lender selected from the approved lists maintained
        by the SO’s. Ensure, through this process, that water and waste grants
        are not awarded unless they are actually needed to make the project
        financing viable and the accompanying loan sound.

           Agency Response

           In the written response to the official draft report, RUS officials stated:

                  A directive will be issued by January 1, 2004, providing specific
                  documentation and lender referral guidelines. The directive will
                  include such items as: communicating with interested lenders
                  routinely; maintaining current rates and terms from commercial
                  lenders interested in the program and defining reasonable user
                  rates at the local level through meetings or email; completing a
                  detailed financial analysis based on current rates and terms;
                  utilizing agency grant funds to subsidize the best loan rates and
                  terms available to lessen the demand on grant funding and serve
                  the maximum end users possible; and referring all applicants to
                  other credit that show feasibility, subject to a more detailed analysis
                  of the cost of issuance.




USDA/OIG-A/09601-6-KC                                                             Page 16
            OIG Position

            We agree RUS issuance of a new directive including the specified
            improvements in application documentation and lender referral guidelines
            would assist the agency in meeting its goal of administering the water and
            waste program in an effective and efficient manner. However, we
            continue to believe that requiring each applicant to provide at least one
            credible proposal from an interested investment lender is the most
            effective way to ensure water and waste grants are not awarded unless
            they are actually needed to make the project financing viable and the
            accompanying loan sound.

            In order to achieve a management decision for Recommendation No. 2,
            we need to be advised whether RUS plans to establish controls that
            ensure each complete grant and loan application includes an evaluation
            and response from at least one commercial investment lender interested
            in financing water and waste projects. Also, we need to be advised the
            agency plans to require the evaluations and responses to be completed by
            a commercial investment lender selected from the approved lists
            maintained by the SO’s.

                                      Establish GPRA specific objectives, goals, and
  RECOMMENDATION NO. 3                performance measures for successful referrals
                                      of water and waste grant and loan applicants
                                      to commercial financing sources and/or
        participation in joint financing with the private sector. Establish referral
        goals and performance measures for each State and periodically monitor
        the States’ grant and loanmaking operations to ensure the goals are met.

            Agency Response

            In the written response to the official draft report, RUS officials stated:

                   RUS WEP will modify the agency tracking system in FY 2004 to
                   capture information on referrals to other credit regardless of agency
                   participation in the funding package for interim and permanent
                   financing. Based on the baseline data collected in FY 2005, goals
                   and performance measures would be established for FY 2006.

            OIG Position

            We accept the management decision.

                                          Revise procedures to require that applicants
  RECOMMENDATION NO. 4                    provide updated evaluations by interested
                                          commercial lenders within 6 months of the

USDA/OIG-A/09601-6-KC                                                              Page 17
          grant and/or loan award date. Require SO’s and AO’s to return those
          applications as incomplete where current evaluations by interested
          commercial lenders are not available at the time of grant and/or loan
          award.

          Agency Response

          In the written response to the official draft report, RUS officials stated:

                 A directive will be issued by January 1, 2004, providing guidance to
                 require current financial analysis of commercial rates and terms to
                 be completed within 6 months of agency obligation of funding.

          OIG Position

          In order to achieve a management decision for Recommendation No. 4,
          we need to be advised whether the planned directive will require SO’s and
          AO’s to return applications as incomplete when updated evaluations by
          interested commercial investment lenders are not provided within 6
          months of the grant and/or loan obligation date.




USDA/OIG-A/09601-6-KC                                                            Page 18
EXHIBIT A – SUMMARY OF MONETARY RESULTS

   Finding
     No.                 Description               Amount      Reference
      1      Investment Lender Ability To
             Replace Grant Obligations         $85,492,635        1/
      1      Investment Lender Ability To
             Replace Concurrent Loans (Total
             Obligation)                          97,874,240      1/
      1      Investment Lender Ability To
             Replace Concurrent Loan Only      163,309,151        1/
      1      Analysis For Other Credit Not
             Complete                          325,409,732        1/

1/ Management or Operating Improvements/Savings




USDA/OIG-A/09601-6-KC                                                  Page 19
EXHIBIT B – STATISTICAL SAMPLING PLAN

The general statistical sample design for this audit was a stratified simple random
sampling scheme where water and waste project grants were selected from data
acquired from RUS. The audit universe was comprised of 905 water and waste projects
that received RUS grant obligations on, or after, January 1, 1997, and before
September 7, 2000. The projects in the audit universe were located in the contiguous
United States and the grant obligation for each sample project exceeded $500,000.
The universe was composed of 905 grants. The 905 grants were stratified into 6 strata
with respect to the grant obligation amount.

The following table gives the specifics of the stratification used in this sample design:

                            Boundary       Number
                                                          Obligated       Sample
             Strata         Obligated        Of
                                                           Amount          Units
                             Amount        Grants
                1         $0-$700,000         266        $155,620,280          11
                           $700,000-
                2                               165       129,351,265          10
                            $900,000
                           $900,000-
                3                               209       221,552,000          16
                           $1,300,000
                          $1,300,000-
                4                               115       173,616,302          13
                           $1,800,000
                          $1,800,000-
                5                                98       203,864,500          14
                           $2,500,000
                              Over
                6                                52       162,389,920          11
                           $2,500,000
            TOTAL                               905    $1,046,394,267          75

A sample size of 75 grants was selected. The sample size of 75 was proportionally
allocated with respect to the obligated amount. The grants were selected with equal
probability without replacement within each strata. The grant obligations were placed
into strata 1-6 using the cumulative square root of the frequencies methodology
(Cochran, SAMPLING TECHNIQUES) with respect to the grant obligation amount. The
sample unit within each strata was a water and waste grant obligation. The table above
contains the details for this allocation and sample selection. A 95 percent two-sided
confidence level was used for all the statistical estimates in this review.

Statistical Analysis.

All statistical sample design, selection, and statistical estimation were accomplished on
a DELL Pentium Personal Computer using SAS and SUDAAN, a software system that
analyzes sample survey data gathered from complex multistage sample designs. The
statistical estimates used for projections along with their standard errors were produced


USDA/OIG-A/09601-6-KC                                                               Page 20
using the SAS callable version of SUDAAN. SUDAAN was written by B.V. Shah of
Research Triangle Institute, Research Triangle Park, North Carolina.

The term sample precision (sp), as used in the report for estimating dollar values,
averages, and number of occurrences is defined as


                                      sp    =    t * STDERR
                                                     PTEST

where

                        t - t factor for a 95% two-sided lower confidence level
                    PTEST - point estimate (estimate of the total, mean, or number of
occurrences)
                   STDERR - standard error of the point estimate

 The sample precision for estimating percentage values is defined as

                                      sp    =    t * STDERR

where

                       t - t factor for a 95% two-sided lower confidence level
                 STDERR - standard error of the point estimate (percentage value)




USDA/OIG-A/09601-6-KC                                                       Page 21
EXHIBIT C – STATISTICAL ESTIMATES
                             PROJECTED DOLLAR VALUE

                                       LOWER 95%      UPPER 95%
     CATEGORY             POINT        CONFIDENCE    CONFIDENCE     PRECISION
                         ESTIMATE        LEVEL          LEVEL
 Investment Lender
 Ability to Replace      $85,492,635   $22,259,522   $148,725,748       .740
 Statistical Sample
 Grants
 Inadequate RUS
 Test for Other Credit   325,409,732   217,480,802   433,338,661        .332
 (No commercial
 lender review
 completed)
 Investment Lender
 Ability to Replace      97,874,240     15,488,004   180,260,475        .842
 Related Loans (Total
 Obligation)
 Investment Lender
 Ability to Replace      163,309,151    57,724,208   268,894,095        .647
 Loan Obligated With
 Sample Grant (Loan
 Only)

                           PROJECTED NUMBER OF CASES

                                       LOWER 95%      UPPER 95%
 CATEGORY                 POINT        CONFIDENCE    CONFIDENCE      PRECISION
                         ESTIMATE        LEVEL          LEVEL
 Investment Lender
 Ability to Replace          97             19           176            .809
 Statistical Sample
 Grants
 Inadequate RUS
 Test for Other Credit       286           181           391            .369
 (No commercial
 lender review
 completed).
 Investment Lender
 Ability to Replace          97             19           176            .809
 Related Loans (Total
 Obligation)
 Investment Lender
 Ability to Replace          169            76           263            .553
 Loan Obligated With
 Sample Grant (Loan
 Only)




USDA/OIG-A/09601-6-KC                                                     Page 22
EXHIBIT D – RESULTS OF TEST FOR OTHER CREDIT
                                                                              LENDER       LENDER
                                                                               COULD       FINANCE    LENDER COULD
                                         GRANT      SAMPLE      INADEQUATE    REPLACE       ABILITY   FINANCE LOAN
  OIG                            GRANT   OBLIG.      GRANT      CREDIT TEST    GRANT      (RELATED        WITH
      19
REVIEW ST           NAME          NO.     DATE      AMOUNT        AMOUNT      AMOUNT        LOANS)     ASSISTANCE
                WASHINGTON CO.
      N    AL       W&FPA          2     03/26/98   $697,500
                  SOUTHEAST
      Y    MS     NOXAPATER        7     03/24/98   545,000      $545,000                               $668,000

      Y    MS    BETHLEHEM         2     07/13/98   585,000       585,000                                996,000
                PIKE CO. PWSD
      Y    MO        NO. 1         2     12/30/99   508,000                   $508,000    $845,000

      N    WA   LEWIS COUNTY      12     07/16/98   639,200

      Y    IL SOUTH LAWRENCE       2     11/30/98   687,700       687,700

      N    AR      DERMOTT         2     12/17/97   684,300

      Y    MS BEULAH HUBBARD       2     05/03/00   613,700                   613,700      791,300
                KILN WATER &
      Y    MS        FIRE          7     07/10/00   565,800                   565,800      711,700
                   DELMAR
      N    DE    DELAWARE          7     04/08/98   611,700


      N    MN    NEW LONDON        3     12/07/99   612,000
                  LAWRENCE
      Y    KY      COUNTY          5     12/05/97   763,000       763,000
                  SOUTH VAN
      Y    MO       BUREN          2     08/04/99   818,000       818,000                                250,000

      Y    TX      OSR WSC        12     01/28/99   844,000       844,000                                314,000


      Y    VA     DAMASCUS         6     04/22/99   805,100
                 HICKORY CO.
      Y    MO    PWSD NO. 2        3     03/24/99   800,000       800,000                               1,200,000
                OGALLALA SIOUX
      N    SD       TRIBE         34     09/03/99   850,000

      Y    TX      BAYSIDE         2     07/30/98   843,600       843,600
                 HARDINVILLE
      Y    IL      WATER           7     11/19/98   750,000

      Y    SC      PELZER          3     04/22/99   815,400       815,400                                726,600
                DICKENSON CO.
      Y    VA        PSA           4     01/07/98   816,000

      Y    TX     AQUA WSC        18     08/03/99   1,257,000                 1,257,000   2,293,000


      N    CA SHASTA COUNTY        3     03/18/97   942,700

      Y    IL     BIGGSVILLE       3     02/04/99   996,600                                              520,000
                MADERA VALLEY
      Y    TX      WATER           3     01/23/97   1,039,600                                            460,400


19
     Y=Yes, N=No, ST=State, NO.=Number

USDA/OIG-A/09601-6-KC                                                                             Page 23
                                                                          LENDER     LENDER
                                                                           COULD     FINANCE    LENDER COULD
                                     GRANT      SAMPLE      INADEQUATE    REPLACE     ABILITY   FINANCE LOAN
  OIG                        GRANT   OBLIG.      GRANT      CREDIT TEST    GRANT    (RELATED        WITH
      19
REVIEW ST       NAME          NO.     DATE      AMOUNT        AMOUNT      AMOUNT      LOANS)     ASSISTANCE

  N    WV       GARY           2     07/22/97   976,000

  N    GA FRANKLIN COUNTY      2     01/28/98   963,000

  N    IN   BEAR HIGH WOLF     2     04/03/97   1,138,400
            WAYNE CO. PWSD
  Y    MO       NO. 2          2     08/08/00   1,065,000    1,065,000                            1,600,000

  N    AL      GORDON          4     07/25/00   1,193,600


  N    DE    HARRINGTON        7     04/08/97   905,000
              WWD#4 OF
  N    LA     ST. MARTIN       2     11/24/98   1,182,000

  Y    KY ESTILL CO. WATER    14     09/22/98   900,000
          PABLO/LAKE CTY
  N    MT      W&S             2     04/02/98   1,247,000
             EAST LAUREL
  Y    KY      WATER          11     12/18/97   900,000       900,000

  N    MN    RICH PRAIRIE      6     06/26/97   1,045,000

  Y    MI    CASS COUNTY       3     11/30/98   1,273,000    1,273,000

  Y    TX      DOBBIN          4     12/19/97   1,500,000    1,500,000
              MC.CREARY
  Y    KY      COUNTY         16     04/15/98   1,690,000    1,690,000
              HARRISON
  Y    PA     TOWNSHIP         2     07/13/99   1,437,200    1,437,200


  N    GA     GLENNVILLE       4     07/13/98   1,792,094

  Y    TX     MALAKOFF         2     06/23/98   1,650,000
              VILLAGE OF
  N    NY     BOONVILLE        5     04/01/97   1,669,800
              VILLAGE OF
  N    OH      SHAWNEE         2     03/23/00   1,308,000

  N    AL COLBERT COUNTY       2     02/23/00   1,646,000
               CYPRESS
  Y    TX    SPRINGS WSC       7     08/03/99   1,700,000
              VILLAGE OF
  N    WI       POPLAR         2     03/20/97   1,696,000

  N    TN      SPENCER        15     04/22/98   1,680,000
              SOUTHEAST
  N    NC     BRUNSWICK        7     11/06/97   1,760,000

  Y    IL   BLANDINSVILLE      3     04/22/98   1,400,000    1,400,000                            1,500,000

  Y    SC     EASTOVER         3     12/18/97   2,040,400    2,040,000

  N    FL    CEDAR GROVE       4     11/23/99   2,000,000
              GILPIN TWP
  Y    PA      SEWAGE          2     09/26/97   2,150,000    2,150,000
            MINGO COUNTY
  N    WV      PUBLIC          7     08/09/00   2,000,000




USDA/OIG-A/09601-6-KC                                                                      Page 24
                                                                                      LENDER        LENDER
                                                                                       COULD        FINANCE     LENDER COULD
                                          GRANT       SAMPLE        INADEQUATE        REPLACE        ABILITY    FINANCE LOAN
  OIG                             GRANT   OBLIG.       GRANT        CREDIT TEST        GRANT       (RELATED         WITH
      19
REVIEW ST            NAME          NO.     DATE       AMOUNT          AMOUNT          AMOUNT         LOANS)      ASSISTANCE
                  QUITMAN CO.
      N     GA      WATER           2     04/05/99    2,215,800

      N     MN    GREEN ISLE        2     12/17/98    1,849,000


      Y     MI     IRON RIVER       2     11/22/99    2,415,000      2,415,000                                    5,000,000

      N     OH   MCO WATER CO.      2     04/27/99    2,224,000
               SUSSEX SERVICE
      Y     VA     AUTH             2     03/19/99    2,200,000


      N     WI ABRAMS SANITARY      2     12/30/99    2,178,000
                 ST. MARTIN PH
      N     LA       WWD#3          2     02/19/98    1,845,600

      N     OR      VENETA          2     07/06/99    2,244,300
                    BRATTON
      Y     PA     TOWNSHIP         2     08/13/99    2,120,000

      Y     SC   SILVER SPRINGS     8     07/10/00    2,038,400                       2,038,400     687,600

      N     NC      BETHEL          3     12/18/98    2,700,000

      N     OR      TURNER          2     01/14/98    3,000,000
                 GOGEBIC RANGE
      Y     MI      WATER           4     12/23/99    2,961,000      2,961,000        2,961,000    1,339,000

      N     CA MERCED COUNTY        6     03/17/98    4,147,650
               MIDWAY SEWAGE
                                                                                 20
      Y     PA     AUTH             2     11/24/99    3,317,000      3,317,000
      N     WA     CLE ELUM         2     03/07/97    2,795,500
               GREEN TOWNSHIP
      Y     PA      MUN             4     04/01/98    2,532,000      2,532,000
      N     OR      SISTERS         5     08/03/99    2,888,600


      Y     MI     WAKEFIELD        2     04/22/98    3,674,900      3,674,900
                 ST. MARTIN PH
      N     LA        SD#2          2     04/18/00    2,964,000


      N     IN     LAGRANGE         2     04/28/00    3,184,000
                     Totals                          $116,493,144   $35,056,800       $7,943,900   $6,667,600    $13,235,000




20
     Local lender contact was in excess of 5 years old when sample grant was funded.

USDA/OIG-A/09601-6-KC                                                                                      Page 25
EXHIBIT E – RUS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/09601-6-KC                          Page 26
USDA/OIG-A/09601-6-KC   Page 27
USDA/OIG-A/09601-6-KC   Page 28
USDA/OIG-A/09601-6-KC   Page 29
                                ABBREVIATIONS


     AO         -       Area Office

     CFR        -       Code of Federal Regulations

     C.P.A.     -       Certified Public Accountant

     FMFIA      -       Federal Managers’ Financial Integrity Act

     FmHA       -       Farmers Home Administration

     FY         -       Fiscal Year

     GPRA       -       Government Performance and Results Act

     NO         -       National Office

     OIG        -       Office of Inspector General

     RD         -       Rural Development

     RUS        -       Rural Utilities Service

     SO         -       State Office

     U.S.C.     -       United States Code

     USDA       -       United States Department of Agriculture

     WEP        -       Water and Environmental Programs




USDA/OIG-A/09601-6-KC                                               Page 30
